                                                  NATIONAL SCIENCE FOUNDAT
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




          We received an allegation that the subject1 submitted an article for publication without including
          one of his undergraduate students who had worked on the project as a co-author. The student
          had brought his concern to the University's administration as well. Our review showed that NSF
          has no jurisdiction in this matter.

          Accordingly, we closed this case and no further action will be taken.




NSF 01G Form 2 (1 1/02)

                                                                     -
